 FEDERAL ELECTION COMMISSION 


  OFFICE OF INSPECTOR GENERAL 





            FINAL REPORT 


Audit of the Federal Election Commission’s

  Fiscal Year 2012 Financial Statements 





             November 2012 


         ASSIGNMENT No. OIG-12-03 

                  FEDERAL ELECTION COMMISSION
                  WASHINGTON, D.C. 20463
                  Office of Inspector General




MEMORANDUM

TO:    	      The Commission

FROM:         I	 nspector General

SUBJECT: 	    Audit of the Federal Election Commission’s Fiscal Year 2012 Financial
              Statements

DATE:	         November 14, 2012


Pursuant to the Chief Financial Officers Act of 1990, commonly referred to as the “CFO
Act,” as amended, this letter transmits the Independent Auditor’s Report issued by Leon
Snead & Company (LSC), P.C. for the fiscal year ending September 30, 2012. The audit
was performed under a contract with, and monitored by, the Office of Inspector General
(OIG), in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and applicable
provisions of Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.

Opinion on the Financial Statements

LSC audited the balance sheet of the Federal Election Commission (FEC) as of
September 30, 2012, and the related statements of net cost, changes in net position,
budgetary resources, and custodial activity (the financial statements) for the year then
ended. The objective of the audit was to express an opinion on the fair presentation of
those financial statements. In connection with the audit, LSC also considered the FEC’s
internal control over financial reporting and tested the FEC’s compliance with certain
provisions of applicable laws and regulations that could have a direct and material effect
on its financial statements. The financial statements of the FEC as of September 30,
2011, were also audited by LSC whose report dated November 14, 2011, expressed an
unqualified opinion on those statements.

In LSC’s opinion, the financial statements present fairly, in all material respects, the
financial position, net cost, changes in net position, budgetary resources, and custodial
activity of the FEC as of, and for the year ending September 30, 2012, in conformity with
accounting principles generally accepted in the United States of America.
Report on Internal Control

In planning and performing the audit of the financial statements of the FEC, LSC
considered the FEC’s internal control over financial reporting (internal control) as a basis
for designing auditing procedures for the purpose of expressing their opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness
of the FEC’s internal control. Accordingly, LSC did not express an opinion on the
effectiveness of the FEC’s internal control.

Because of inherent limitations in internal controls, including the possibility of
management override of controls; misstatements, losses, or noncompliance may
nevertheless occur and not be detected. According to the American Institute of Certified
Public Accountants:
   •	 A control deficiency exists when the design or operation of a control does not
       allow management or employees, in the normal course of performing their
       assigned functions, to prevent or detect misstatements on a timely basis.
   •	 A significant deficiency is a control deficiency, or combination of control
       deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
       process, or report financial data reliably in accordance with generally accepted
       accounting principles such that there is a more than remote likelihood that a
       misstatement of the entity’s financial statements that is more than inconsequential
       will not be prevented or detected by the entity’s internal control.
   •	 A material weakness is a significant deficiency, or combination of significant
       deficiencies, that results in more than a remote likelihood that a material
       misstatement of the financial statements will not be prevented or detected by the
       entity’s internal control.

LSC’s consideration of internal control was for the limited purpose described in the first
paragraph in this section and would not necessarily identify all deficiencies in internal
control that might be significant deficiencies or material weaknesses. LSC did not
identify any deficiencies in internal control that LSC would consider to be material
weaknesses, as defined above. However, LSC did identify a significant deficiency in
internal controls related to Information Technology security.

Report on Compliance with Laws and Regulations

FEC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FEC’s financial statements
are free of material misstatements, LSC performed tests of compliance with certain
provisions of laws and regulations, noncompliance which could have a direct and
material effect on the determination of financial statement amounts, and certain other
laws and regulations specified in OMB Bulletin No. 07-04, as amended. LSC did not test
compliance with all laws and regulations applicable to FEC.

The results of LSC’s tests of compliance with laws and regulations described in the audit
report disclosed no instance of noncompliance with laws and regulations that are required
to be reported under U.S. generally accepted government auditing standards or OMB
guidance.
                                               2

Audit Follow-up

The independent auditor’s report contains recommendations to address deficiencies found
by the auditors. Management was provided a draft copy of the audit report for comment
and generally concurred with some of the findings and recommendations. In accordance
with OMB Circular No. A-50, Audit Follow-up, revised, the FEC is to prepare a
corrective action plan that will set forth the specific action planned to implement the
agreed upon recommendations and the schedule for implementation. The Commission
has designated the Chief Financial Officer to be the audit follow-up official for the
financial statement audit.

OIG Evaluation of Leon Snead & Company’s Audit Performance

We reviewed LSC’s report and related documentation and made necessary inquiries of its
representatives. Our review was not intended to enable the OIG to express, and we do
not express an opinion on the FEC’s financial statements; nor do we provide conclusions
about the effectiveness of internal control or conclusions on FEC’s compliance with laws
and regulations. However, the OIG review disclosed no instances where LSC did not
comply, in all material respects, with Government Auditing Standards.

We appreciate the courtesies and cooperation extended to LSC and the OIG staff during
the audit. If you should have any questions concerning this report, please contact my
office on (202) 694-1015.




                                                    Lynne A. McFarland
                                                    Inspector General

Attachment

Cc: 	   Alec Palmer, Staff Director/Chief Information Officer
        Judy Berning, Acting Chief Financial Officer
        Anthony Herman, General Counsel




                                            3

    Federal Election Commission

      Audit of Financial Statements


       As of and for the Years Ended

       September 30, 2012 and 2011




                   Submitted By


            Leon Snead & Company, P.C.

Certified Public Accountants & Management Consultants
                                 TABLE OF CONTENTS




                                                                                                                    Page


Independent Auditor’s Report..............................................................................................1


Attachment 1, Chart on FEC’s Corrective Actions ...........................................................29


Attachment 2, Status of Prior Year Reportable Conditions...............................................31


Agency Response to Report





                                                             i
The Commission, Federal Election Commission
Inspector General, Federal Election Commission

                            Independent Auditor’s Report

We have audited the balance sheets of the Federal Election Commission (FEC) as of
September 30, 2012 and 2011, and the related statements of net cost, changes in net
position, budgetary resources, and custodial activity (the financial statements) for the
years then ended. The objective of our audit was to express an opinion on the fair
presentation of those financial statements. In connection with our audit, we also
considered the FEC’s internal control over financial reporting and tested the FEC’s
compliance with certain provisions of applicable laws and regulations that could have a
direct and material effect on its financial statements.

SUMMARY

As stated in our opinion on the financial statements, we found that the FEC’s financial
statements as of and for the years ended September 30, 2012 and 2011, are presented
fairly, in all material respects, in conformity with accounting principles generally
accepted in the United States of America.

Our consideration of internal control would not necessarily disclose all deficiencies in
internal control over financial reporting that might be material weaknesses under
standards issued by the American Institute of Certified Public Accountants. However,
our testing of internal control identified no material weaknesses in financial reporting.
We did note one significant deficiency related to internal controls for the FEC’s agency-
wide Information Technology (IT) security program that are discussed later in our report.

The results of our tests of compliance with certain provisions of laws and regulations
disclosed no instance of noncompliance that is required to be reported herein under
Government Auditing Standards, issued by the Comptroller General of the United States
and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements (as amended).

The following sections discuss in more detail our opinion on the FEC’s financial
statements, our consideration of the FEC’s internal control over financial reporting, our
tests of the FEC’s compliance with certain provisions of applicable laws and regulations,
and management’s and our responsibilities.
OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the FEC as of September 30, 2012
and 2011, and the related statements of net cost, changes in net position, budgetary
resources and custodial activity for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position, net cost, changes in net position, budgetary resources and
custodial activity of the FEC as of and for the years ended September 30, 2012 and 2011,
in conformity with accounting principles generally accepted in the United States of
America.

Accounting principles generally accepted in the United States of America require that
Management’s Discussion and Analysis be presented to supplement the basic financial
statements. Such information, although not a part of the basic financial statements, is
required by the Federal Accounting Standards Advisory Board (FASAB) who considers
it to be an essential part of financial reporting for placing the basic financial statements in
an appropriate operational, economic, or historical context. We have applied certain
limited procedures to the required supplementary information in accordance with auditing
standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing
the information for consistency with management’s responses to our inquiries, the basic
financial statements, and other knowledge we obtained during our audit of the basic
financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to
express an opinion or provide any assurance.

RESPONSIBILITIES

Management Responsibilities

Management of the FEC is responsible for: (1) preparing the financial statements in
conformity with generally accepted accounting principles; (2) establishing, maintaining,
and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers Financial Integrity Act (FMFIA) are met; and (3)
complying with applicable laws and regulations. In fulfilling this responsibility,
estimates and judgments by management are required to assess the expected benefits and
related costs of internal control policies.

Auditor Responsibilities

Our responsibility is to express an opinion on the financial statements based on our audit.
We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements (as



Leon Snead & Company, P.C.                       2
amended). Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material
misstatement.

An audit includes (1) examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements; (2) assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

In planning and performing our audit, we considered the FEC’s internal control over
financial reporting by obtaining an understanding of the agency’s internal control,
determining whether internal controls had been placed in operation, assessing control
risk, and performing tests of controls in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements.

We limited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin 07-04 (as amended) and Government Auditing
Standards. We did not test all internal controls relevant to operating objectives as
broadly defined by FMFIA. Our procedures were not designed to provide an opinion on
internal control over financial reporting. Consequently, we do not express an opinion
thereon.

As part of obtaining reasonable assurance about whether the agency’s financial
statements are free of material misstatement, we performed tests of its compliance with
certain provisions of laws, regulations, and significant provisions of contracts,
noncompliance with which could have a direct and material effect on the determination
of financial statement amounts, and certain other laws and regulations specified in OMB
Bulletin 07-04, (as amended). We limited our tests of compliance to these provisions and
we did not test compliance with all laws and regulations applicable to the FEC.
Providing an opinion on compliance with certain provisions of laws, regulations, and
significant contract provisions was not an objective of our audit and, accordingly, we do
not express such an opinion.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the financial statements of the FEC as of and for
the years ended September 30, 2012 and 2011, in accordance with auditing standards
generally accepted in the Unites States of America, we considered the FEC’s internal
control over financial reporting (internal control) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements, but not
for the purpose of expressing an opinion on the effectiveness of the FEC’s internal
control. Accordingly, we do not express an opinion on the effectiveness of the FEC’s
internal control.




Leon Snead & Company, P.C.                    3
Because of inherent limitations in internal controls, including the possibility of
management override of controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. A control deficiency exists when the design or
operation of a control does not allow management or employees, in the normal course of
performing their assigned functions, to prevent or detect misstatements on a timely basis.
A material weakness is a deficiency, or combination of deficiencies, in internal control,
such that there is a reasonable possibility that a material misstatement of the financial
statements will not be prevented or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control
that is less severe than a material weakness, yet important enough to merit attention by
those charged with governance of the FEC.

Our consideration of internal control was for the limited purpose described in the first
paragraph in this section of the report and would not necessarily identify all deficiencies
in internal control that might be deficiencies, significant deficiencies or material
weaknesses. We did not identify any deficiencies in internal control that we consider to
be material weaknesses, as defined above. However, as discussed below, we identified a
deficiency in internal control that we consider to be a significant deficiency.

Findings and Recommendations

FEC’s governance and management officials’ decision to not fully adopt Information
Technology (IT) best practices increases risk to the agency’s information and information
systems. Other federal agencies exempted from the Federal Information Security
Management Act (FISMA) 1 have adopted these best practices to ensure information and
information systems are properly secured. The absence of FEC policies requiring the
Office of the Chief Information Officer (OCIO) personnel to perform and document a
fact-based risk assessment when deciding not to adopt an IT security best practice
requirement increases risk to the agency’s information and information systems. Without
adopting and implementing National Institute of Science and Technology (NIST)
1
  The National Institute of Science and Technology (NIST) noted that the E-Government Act (Public Law
107-347), passed by the 107th Congress and signed into law by President George W. Bush in December
2002, recognized the importance of information security to the economic and national security interests of
the United States. “NIST employs a comprehensive public review process on every FISMA standard and
guideline to ensure the security standards and guidelines are of the highest quality—that is, technically
correct and implementable. NIST actively solicits and encourages individuals and organizations in the
public and private sectors to provide feedback on the content of each of the FISMA publications. In most
cases, the FISMA security publications go through three full public vetting cycles providing an opportunity
for individuals and organizations to actively participate in the development of the standards and guidelines.
NIST also works closely with owners, operators, and administrators of information systems within NIST to
obtain real-time feedback on the implementability of the specific safeguards and countermeasures (i.e.,
security controls) being proposed for federal information systems. Finally, NIST has an extensive outreach
program that maintains close contact with security professionals at all levels to ensure important feedback
can be incorporated into future updates of the security standards and guidelines. The combination of an
extensive public review process for standards and guideline development, the experience in prototyping
and implementing the safeguards and countermeasures in the information systems owned and operated by
NIST, and the aggressive outreach program that keeps NIST in close contact with its constituents, produces
high-quality, widely accepted security standards and guidelines that are not only used by the federal
government, but are frequently adopted on a voluntary basis by many organizations in the private sector.”



Leon Snead & Company, P.C.                              4
minimum security controls, the FEC’s computer network, data and information is at an
increased risk of loss, theft, manipulation, interruption of operations, and other adverse
actions.

Best practice guidance and/or FEC policies that provide guidance on issues discussed in
this finding include: OMB Circular A-130, Management of Federal Information
Resources (FIPS) Publication 200, Minimum Security Requirements for Federal
Information and Information Systems; Special Publication (SP) 800-53, Recommended
Security Controls for Federal Systems and Organizations; SP 800-118, Guide to
Enterprise Password; SP 800-34, Contingency Planning Guide for Federal Information
Systems; OMB Bulletins; Department of Homeland Security directives; and FEC IT
Security Policies 58.2.2, 58.2.4, and 58-4.3. In addition, Office of Management and
Budget Circular A-50, Audit Follow-up, as revised, and FEC Directive 50, Audit Follow-
up, provide guidance on the requirements for audit follow-up.

The issues we identified with FEC IT security controls are detailed below.

       A. Full Adoption of NIST Best Practices Would Strengthen FEC’s Information
          and Information Systems

           As we have reported since 2009, FEC, unlike other Federal agencies exempted
           from FISMA compliance, has not fully adopted the minimum government-wide
           IT security controls and techniques released by the NIST. FEC officials advised
           that they follow NIST “best practices” where applicable to their operations.
           However, there are no FEC policies that guide when an analysis should be
           performed in making a decision whether or not to implement required
           government-wide security practices. In addition, we were advised that there is no
           documentation retained to support such critical decisions that impact the security
           of FEC’s information and information systems. Tests of selected IT security
           controls found numerous instances where applicable best practice controls were
           not implemented by FEC, and we were unable to locate substantive analysis of the
           risk to the agency of not adopting these minimum best practices. Controls tested
           included: vulnerability scanning of the FEC’s entire network; implementation of
           minimum established password controls; configuration management; user access
           controls; certification and accreditation controls; and implementation of one of the
           President’s national security initiatives, TIC (Trusted Internet Connections).

           In prior audit reports, we recommended that FEC adopt the NIST IT security
           controls established in FIPS 200 and SP 800-53, and other related FISMA
           security documents. We also reported that the Government Accountability Office
           (GAO), another Federal agency exempt from FISMA, had adopted the NIST
           security requirements. GAO stated 2 that it “adheres to federal information
           security governance, such as OMB and National Institute of Standards and
           Technology guidance.”


2
    See GAO Performance and Accountability Report – 2011, page 58.



Leon Snead & Company, P.C.                                  5
         The Inspector General’s “Statement on the Federal Election Commission’s
         Management and Performance Challenges,” dated October 14, 2011, stated:

             “…Since 2004, the OIG (Office of Inspector General) has reported, and
             continues to believe that it is in the best interest of the agency to formally adopt
             government-wide IT security standards to ensure the FEC has an effective
             information security program. For several years, the OIG’s auditors have
             identified IT practices that are not aligned with the minimal best practice
             standards that are followed by federal agencies government-wide. Lastly, the
             agency has failed to adequately define the set of best practices used to secure
             the FEC’s information technology.”

         FEC officials have indicated that the agency makes informed decisions when
         deciding whether to adopt government-wide IT security requirements. As part of
         our audit testing, we requested that OCIO officials provide us with FEC policy
         guidance that requires a risk-based analysis of IT security requirements, and/or
         documentation that would provide support for a decision to not adopt a
         government-wide IT security requirement for the period 2010 to present. We also
         requested that FEC provide us with any documentation that would support the
         decision to not adopt two key government-wide IT security requirements, the
         Trusted Internet Connections (TIC) 3 which has been a requirement since 2007,
         and Federal Acquisition Regulations 4(FAR) that mandate that FISMA security
         requirements be included in IT service and related contracts. OCIO officials
         advised us that FEC does not have a procedure that requires such an analysis, and
         there was no documentation of any analysis identifying the risks of not adopting
         these two key security requirements.

         An illustration of the importance of FEC implementing a policy requirement to
         perform a risk-based analysis when deciding not to adopt a government-wide
         security requirement, and to document this decision with the approval of the CIO,
         at a minimum, is the decision of FEC officials to not implement the TIC.

         TIC was introduced in OMB Memorandum M-08-05, dated November 20, 2007.
         The initiative was described in the memorandum as an effort to develop "a
         common [network] solution for the federal government" that would reduce the

3
  TIC was introduced in OMB Memorandum M-08-05, Implementation of Trusted Internet Connections (TIC), dated
November 20, 2007, and required that agencies develop "a common solution for the federal government" that would
reduce the number of external Internet connections for the entire government to 50. National Security Presidential
Directive 54/Homeland Security Presidential Directive 23, Cyber Security and Monitoring, (NSPD-54 and HSPD-23)
issued in January 2008 included TIC as Initiative #1, Manage the Federal Enterprise Network as a single network
enterprise with Trusted Internet Connections. The Trusted Internet Connections (TIC) initiative, headed by the Office
of Management and Budget and the Department of Homeland Security, covers the consolidation of the Federal
government’s external access points (including those to the Internet). This consolidation will result in a common
security solution which includes: facilitating the reduction of external access points; establishing baseline security
capabilities; and, validating agency adherence to those security capabilities.
4
  Page 7.1-2, FAR Section 7.103 states: "Agency-head responsibilities--- The agency head or a designee shall prescribe
procedures for ensuring that agency planners on information technology acquisitions comply with the information
technology security requirements in the Federal Information Security Management Act (44 U.S.C. 3544)..."



Leon Snead & Company, P.C.                                   6
       number of external Internet connections for the entire government to 50. The
       memorandum stated that "each agency will be required to develop a
       comprehensive POA&M (Plan of Action and Milestones)" to implement TIC, but
       it neither defined "agency" nor referred to any legal authority supporting the
       initiative. FEC’s Office of General Counsel (OGC) analyzed this document and
       determined that since POA&Ms were required by FISMA or its predecessor
       statute, and because this POA&M requirement appeared to be an expansion of an
       existing requirement from which the Commission was exempt, the FEC was
       exempt from TIC.

       In a June 2009 memorandum to the Staff Director, OGC noted that on January 8,
       2008, former President Bush signed Homeland Security Presidential Directive
       (HSPD) Number 23 which authorizes the Department of Homeland Security
       (DHS) to deploy Einstein 2, an automated intrusion detection system, across
       Federal networks. Einstein 2 would allow the DHS, National Cyber Security
       Division, and U.S. Computer Emergency Readiness Team (US-CERT) to
       consolidate Federal system intrusion detection, incident analysis and cyber
       response capabilities. HSPD-23 is classified; therefore, the specific authorizing
       statute for the directive and the extent of its application to the Federal Election
       Commission is unknown. The OGC stated that “We confirmed with DHS on
       November 12, 2008 that in DHS’s view the Commission is within the scope of the
       presidential directive. However, unclassified legal briefing materials provided by
       the Department of Justice indicate that at least part of the directive may be
       authorized by FISMA, from which the FEC is exempt. Thus, there is a possibility
       that HSPD-23 is only partially applicable to the FEC, or is not applicable at all to
       the FEC. Since the directive itself is classified, and limited unclassified
       information has been released, we do not have sufficient information at this time
       to confirm HSPD-23's applicability to the FEC.”

       While it was DHS’s position, as confirmed by the FEC GC in a memorandum
       issued in August 2012 to the Staff Director, that the TIC was a critically important
       IT security measure that was applicable to FEC; the FEC did not implement this
       Presidential security initiative. Instead, FEC officials took no action to assess the
       importance of this government-wide initiative or evaluate whether risks would be
       reduced if FEC implemented this security requirement. As a result of this audit,
       the FEC now agrees that the TIC initiative must be implemented. A failure by the
       FEC to perform due diligence on this control as required in 2007, increased the
       risk that the agency’s network could have been exposed to a network intrusion or
       other computer network attack.

       Recommendations

       1.	 Formally adopt as a model for FEC, the NIST IT security controls established
           in FIPS 200 and SP 800-53, as the Government Accountability Office has
           done.




Leon Snead & Company, P.C.	                    7
           Agency Response
           The Deputy CIO for Operations advised that the OCIO disagrees with this
           recommendation. The FEC has adopted, and has put in place the necessary
           security requirements and controls to ensure that the FEC IT systems are
           secure. As an agency exempt from FISMA, the controls in place reflect the
           appropriate level of security and acceptable risk to support the mission and
           safeguard the data of the agency. The agency's security program is governed
           by Directive 58 which consists of 34 policies, 8 distinct procedures, adoption
           of 18 standards, all documented and signed and endorsed by the CIO.

           Auditor’s Comments
           We continue to believe that the FEC’s information and information systems
           are at high risk because of the decision made by FEC officials not to adopt all
           minimum security requirements that the Federal government has adopted,
           including the GAO which is also exempt from FISMA requirements. We do
           not dispute that the FEC has issued policies and procedures. Our position is
           that these policies and procedures are not currently adequate to secure FEC’s
           information and information systems. As discussed above, had FEC not
           declined to adopt mandatory security procedures included in the “trusted
           internet connection,” even after the DHS advised the requirement was
           applicable to FEC, risk to the agency computer network could have been
           minimized.

       2.	 Revise FEC policies to require that FEC contractors adhere to the FAR
           FISMA related requirements, and mandate that FEC contractors follow
           FISMA IT controls when providing services to the federal government. Use
           NIST SP 800-53 as guidance for establishing IT controls that contractors must
           follow.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO disagrees with this
           recommendation. As a FISMA exempt agency, the FEC incorporates language
           and is supported by FAR clauses that address the level of security necessary to
           safeguard agency security in all of its contracts. This language was agreed to
           by the agency contracting officer and ISSO, contractors are required to adhere
           to the same level of security that FEC employees are.

           Auditor’s Comments
           FEC should not use the agency’s FISMA exemption to also exempt its
           contractors from meeting minimum federal government IT security
           requirements. The federal government has established a comprehensive IT
           services contracting process that assures that minimum security requirements
           are met, including the requirement of a continuous monitoring process over
           these IT services. If FEC continues to refuse to adopt these federal
           requirements, the agency will be required to stand alone in its development of




Leon Snead & Company, P.C.	                   8
           IT security controls, and complete a duplicate and ineffective continuous
           monitoring process.

       3.	 Develop a time-phased corrective action plan to address the prompt
           implementation of the TIC by FEC. Ensure that TIC is implemented as soon
           as possible, but no later than June 2013.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO agrees with this
           recommendation that the FEC must now comply with TIC. In light of new
           information provided to the FEC in August 2012, that requires the FEC to
           implement TIC, the FEC will develop a plan to address TIC implementation.
           This plan will be developed dependent upon the availability of resources
           required, and we cannot commit to a specific timeframe until a detailed
           analysis of what is required is performed. The FEC is scheduled to meet with
           Commerce Department to discuss lessons learned.

           Auditor’s Comments
           The OCIO agreed to implement this recommendation; however, the agency
           would not commit to a specific timeframe for completion. It has been almost
           four years since the DHS advised the agency that the implementation of TIC
           was a requirement for FEC. We believe that this Presidential initiative should
           be implemented immediately, and until the agency fully implements this
           project, the agency’s information and information systems remain at high risk.

       4.	 Revise FEC policies and procedures to require a documented, fact-based risk
           assessment prior to deciding not to adopt a government-wide IT security best
           practice, or IT security requirement contained in the Federal Acquisition
           Regulations. Require the CIO to approve and accept the risk of any deviation
           from government-wide IT security best practices (i.e. NIST, FAR IT controls)
           that are applicable to the FEC business operations. Retain documentation of
           these decisions.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO disagrees with this
           recommendation. The Office of General Counsel provides opinion on which
           government-wide security requirements are applicable to this agency, based
           upon specific exemptions granted by Congress. If the agency is indeed
           exempted from a requirement, the OCIO will determine whether or not the
           agency will establish and maintain "best practice" of that exemption within
           the resources available. Documentation of the opinion of the agency's General
           Counsel on each exemption of applicable law or regulation is maintained on
           file.




Leon Snead & Company, P.C.	                   9
             Auditor’s Comments
             The FEC’s information and information systems will continue to remain at
             risk until the agency begins to make documented, risk-based IT security
             decisions. Currently, FEC’s IT security decisions appear to be based
             primarily upon whether the agency is legally exempt from the government-
             wide requirement, instead of a determination that implementation of the
             security requirement would make the agency’s information and information
             systems more secure. As noted above, the agency failed to implement one of
             the President’s top IT security priorities because the agency erroneously
             believed it may have been indirectly linked to the legislation that implemented
             FISMA.

    B. Access Controls

        FEC’s access controls do not meet best practice controls, and in some instances
        FEC policies. Our tests of this key IT security control identified the following
        problems:

        User Accounts: Passwords are the keys to accessing FEC’s general support
        system (GSS) and related information and information systems, and provide
        front-end access to FEC’s accounting, financial management and payroll systems.
        Therefore, the strength of FEC’s access controls and passwords is critically
        important. We have reported since 2009 that the password requirements
        established by FEC are weak, and do not meet OMB mandated government-wide
        requirements for password strength (see issues below for further details). Because
        FEC is exempt from the legislation underlining OMB requirements relating to this
        area, FEC officials have elected not to implement several of the minimum
        government-wide requirements for strengthening passwords. The agency did not
        have any documentation to support this decision.

        Accounts with Passwords that Never Expire: During our review of access
        controls, we obtained a listing of user accounts with passwords set never to expire
        (therefore, the same password would be used for this account until either this
        setting is changed, or the account’s password is changed manually). From a total
        listing of about 570 accounts, approximately 140 accounts had passwords without
        expiration dates. We identified that approximately 100 of the 140 accounts had
        passwords that had not been changed since 2010. According to the records
        provided, approximately 80 of the 140 accounts had not had a password change
        since 2007, and a large number of these dated to 1998. In addition, our analysis
        of the records provided, found approximately 40 of the 140 accounts listed as
        active users were shown as having never logged into the accounts. Further, we
        noted that many of these accounts contained some form of administrator 5
        authority for selected areas or network operations.

5
 The term used for an account that has access privileges that a normal account would not be allowed to
obtain. In most cases, for the system or network on which it is located, the administrator account could
have almost unlimited authority.



Leon Snead & Company, P.C.                            10
        Disabled Accounts Remain on Active Directory: As part of our analysis of
        user accounts, we noted that approximately 400 apparently disabled user accounts
        remained on the active directory. The records provided by OCIO showed that the
        accounts had never logged into the network. OCIO officials advised that a review
        will be conducted of these accounts this year.

        Processes for Assigning Replacement and Initial Passwords 6: We requested
        all FEC policies and operating procedures relating to this area for testing.
        However, we were advised by OCIO officials that the FEC does not have written
        policies or operating procedures for establishing initial account passwords or
        replacement passwords. OCIO officials stated that “When systems administrators
        (SAs) are notified, through the FEC System Access (FSA) system, that there is a
        need to establish an account, the SA then establishes an account with a generic
        password of his or her choosing; this is not recorded for security reasons. Then
        either through the new hire orientation program, or through the help desk, the
        person is instructed to change this password and it must be changed before access
        to the system is granted.”

        The absence of specific FEC policies and operating procedures prevents FEC
        from setting requirements for this important area. For example, as discussed
        below, we identified that a FEC issued default password had not been changed in
        six months. Because of the absence of appropriate controls in this area, we were
        able to obtain access to other contractor personnel email accounts using this
        default password.

        Login Passphrase for Contractors: An audit report released by OIG, 2010
        Follow-Up Audit of Privacy and Data Protection, Federal Election Commission,
        Audit Report Number OIG-10-03, contained a finding related to access controls,
        the Inspector General stated, “We were informed by the Information Systems
        Security Officer that encrypted laptops assigned to contractors use an encryption
        passphrase assigned by the FEC. This is done to allow access to the information
        on the laptop if the contractor suddenly or unexpectedly departed the FEC. This
        process differs from that of FEC employees, who choose their own unique
        passphrase. Based on mobile devices assigned to contract auditors as part of
        another follow-up audit, it appears the same passphrase is used for all contractors.
        The passphrase assigned to contractors is not suitably complex, is relatively
        intuitive, and could be easily guessed or “hacked” by using basic password
        detection or “cracking” software. The lack of a unique secret passphrase for each

6
  These terms are used to describe that part of password administration (authentication controls) when a
predetermined password is provided to a new user during initial login process and when replacement
passwords are provided to existing users who are unable to login with an existing password (e.g. password
is forgotten). We experienced difficulty in finalizing our audit testing of the policies, procedures and
processes FEC follows when assigning replacement and initial passwords for users’ network accounts.
Because of the departure of a key OCIO official and other reasons, delays occurred in obtaining necessary
documentation to enable us to complete testing for this area. However, based upon the information
provided, we have identified areas where policies, procedures and processes are absent, or need
improvement.



Leon Snead & Company, P.C.                            11
        individual increases the risk that the data on that laptop could be accessed by an
        unauthorized individual.”

        We followed up on this issue and confirmed that the problem reported by the
        auditors in 2010 continued in 2012. For example, the same passphrase for
        contractor laptops has been used since 2009, and cannot be changed by the
        contractor. We agree with the prior auditors’ conclusion that this weakness
        substantially negates the effectiveness of this control.

        Remote Access: During our audit, we identified that FEC had recently purchased
        approximately 150 laptop computers for use by FEC employees. These laptops
        can be used to access the FEC system remotely when the employees are working
        offsite. We identified that these laptops currently are not configured to use two-
        factor authentication, as required by best practices and FEC policies.

        Recommendations

        5.	 Immediately implement government-wide requirements relating to
            strengthened password controls.     Revise FEC policies and operating
            procedures to require the minimum best practices controls contained in FDCC
            and USGCB 7.

            Agency Response
            The Deputy CIO for Operations advised that the OCIO does not agree with
            this recommendation. The agency's password standard contains sufficiently
            strong password controls for the classification of this agency.

            Auditor’s Comments
            FEC advised that the password controls for the agency are sufficient for the
            classification of this agency. However, government-wide best practices as
            established by OMB and endorsed by the council of CIOs require that
            passwords contain twelve characters. These controls are applicable to the risk
            rating of the FEC general support system.

        6.	 Undertake a comprehensive review of user accounts that have been granted
            non-expiring passwords. Require certification from account owners detailing
            the need for non-expiring accounts, including the development of other
            alternatives, before reauthorizing the accounts’ access. Develop FEC policies
            and operating procedures to implement this recommendation.



7
  Federal Desktop Core Configuration (FDCC) and United States Government Configuration Baseline
(USGCB) are requirements that OMB have set for government-wide security settings directing agencies
with Windows deployed operating system to adopt the security configurations developed by the National
Institute of Standards and Technology (NIST), the Department of Defense (DoD) and the Department of
Homeland Security (DHS).



Leon Snead & Company, P.C.	                         12
       7.	 Whenever possible, require accounts with non-expiring passwords to be
           changed at least annually. Establish substantially more robust password
           requirements for accounts granted non-expiring passwords. Develop FEC
           policies and operating procedures to implement this recommendation.

       8.	 Immediately terminate those accounts with non-expiring passwords that have
           not accessed their accounts within the last 12 months. Develop FEC policies
           and operating procedures to implement this recommendation.

           Agency Response (Recommendations 6 through 8)
           The Deputy CIO for Operations advised that the OCIO agrees in part with
           these recommendations. There are no user accounts that have been granted
           non-expiring passwords. The only accounts that have non-expiring passwords
           are accounts that have been established as administrative accounts or
           application accounts that need to be set up to run applications. These accounts
           are only accessible by systems administrators in the performance of “sys
           admin” duties. There are such accounts that have been established in the past
           that are no longer required, and we are reviewing these accounts for
           applicability. The operating procedures that are followed in this process are
           standard system administration functions performed by qualified system
           administrators. The account review will be completed by July 2013.

           Auditor’s Comments (Recommendations 6 through 8)
           We continue to believe that the recommendations should be implemented by
           FEC, in total, based upon the problems noted with these accounts.

       9.	 Remove the 400 disabled accounts noted during this audit by the end of the
           calendar year, and on a semi-annual basis conduct a review of the active
           directory to remove disabled accounts. Revise FEC policies and operating
           procedures to implement this recommendation.

           Agency Response
           The Deputy CIO for Operations advised that the disabled accounts remain in
           the list of accounts for historical purposes, and will be reviewed as part of the
           actions taken for recommendations 2-4.

           Auditor’s Comments
           We continue to believe that the recommendation should be implemented by
           FEC based upon the problems noted with these accounts.

       10. Strengthen controls over the establishment of initial and replacement (default)
           passwords, to include requiring that random passwords be used, and the
           default passwords used be changed monthly. Develop FEC policies and
           operating procedures to implement this recommendation.




Leon Snead & Company, P.C.	                    13
           Agency Response
           The Deputy CIO for Operations advised that the OCIO disagrees with this
           recommendation. The FEC password standard is documented and followed by
           the FEC. The password standard is adequate for the security level of this
           agency.

           Auditor’s Comments
           We continue to believe that the recommendation should be implemented by
           FEC based upon the problems noted with these accounts.

       11. Research and fix the problem that enables use of a default password to access
           other contractor email accounts.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO agrees with this
           recommendation. FEC will research this issue, but policy dictates that each
           contractor that requires an email account has a unique password.

           Auditor’s Comments
           Since the FEC agreed to this recommendation, we have no additional
           comments.

       12. Establish procedures that require contractors to create their own unique login
           passphrase.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO agrees with this
           recommendation. The FEC will research this recommendation to ensure that
           all FEC policies are applied equally, unless a unique exemption is
           documented.

           Auditor’s Comments
           Since the FEC agreed to this recommendation, we have no additional
           comments.

       13. Require all employees and contractors with remote access to FEC’s networks
           to comply with the dual-factor authentication requirement for their FEC
           laptop, as federal and FEC policies mandate.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO agrees with this
           recommendation. The FEC does require all employees and contractors to
           comply with dual factor authentication. The agency requires a password and a
           secure key or HSPD-12 ID to affect dual authentication. The agency is
           currently in transition from secure key to HSPD-12 ID's and expects to
           complete the transition by March 2013.



Leon Snead & Company, P.C.                    14
           Auditor’s Comments
           While FEC officials agreed with this recommendation, and stated that the
           agency requires dual factor authentication, FEC currently has up to 150
           laptops in service that currently do not have dual factor authentication and can
           remotely access the FEC network.

   C. A System to Recertify Users Access Authorities is Needed

       FEC has not developed an effective process to periodically review user access
       authorities by the users’ supervisors, even though agency officials agreed to
       implement this recommendation in response to our 2009 financial statement audit.
       Auditing standards required our follow up on the actions taken by FEC to address
       this problem. FEC officials indicated that a new approach to implementing this
       control process would be associated with the FEC’s “Livelink” project. However
       there was no documentation provided to support that this process was being
       implemented into “Livelink,” and we were advised that “Livelink” was never
       meant to provide a means for users’ supervisors to review their employees’ access
       authorities.

       In meetings with the CIO and Deputy CIO for Operations we were advised that
       the FEC still had not developed a method for performing periodic reviews of user
       access authorities. The CIO indicated that this project was one that the FEC
       wanted to implement, and when the new CISO was on board the OCIO would
       again address this project. FEC is at unnecessary risk, and is not in compliance
       with best practice control processes and its own policies. Without periodically
       performing a review of user access authorities, FEC officials do not have
       assurance that users only have access to information and information systems that
       are necessary to accomplish job responsibilities, resulting in a recent incident of
       an FEC employee having unauthorized access to information on network files.

       Recommendations

       14. Establish an FEC policy that requires annual recertification of users’ access
           authorities.

       15. Review FEC current system capabilities in implementing recertification of
           user access authorities. Develop and document a detailed project plan based
           on management’s review, and assign sufficient resources to this project so that
           it can be completed on or prior to June 2013.

           Agency Response (Recommendations 14 and 15)
           The Deputy CIO for Operations advised that the OCIO disagrees with these
           recommendations. Annual recertification is not necessary and would be
           redundant with the procedures of the agency's FEC System Access system.
           All access requests and removals are recorded in the agency's FSA. Access
           remains in effect until the request for removal is submitted.



Leon Snead & Company, P.C.                     15
           Auditor’s Comments (Recommendations 14 and 15)
           Since we first reported that FEC needed to perform a recertification of user
           access authorities, and made recommendations in our 2009 financial statement
           audit report, FEC officials have agreed to implement this recommendation. In
           a recent meeting in September 2012, senior agency officials confirmed that
           the agency intended to implement a recertification process. OCIO officials
           have now changed the agency’s position and disagree with our
           recommendation. OCIO officials advised that the FSA system provides this
           recertification control, and a separate independent recertification of user
           access authorities would be redundant. However, there can never be full
           assurance that the FSA system will actually reflect the status of network users
           in active directory. The recertification of active users must come from the
           original controlling files – active directory. FSA does not provide an accurate
           snapshot of users’ access authorities. For example, we identified five
           separated contractors listed as active users in the FSA system, and having
           access to FEC’s network although they no longer worked for the FEC. We
           have noted similar problems with the system in prior audits. In addition, FSA
           allows FEC personnel who are not managers or supervisors to grant network
           access to other FEC staff. These requests are not required to be approved or
           reviewed by a supervisor and/or manager prior to granting access. Further, all
           managers and supervisors do not have access to FSA, and have not been
           trained on FSA in order to periodically review FEC personnel access
           authorities. Therefore, in its current state, FSA cannot be used as an accurate
           source for recertification of user’s access authorities. Without such a control,
           FEC will continue to experience problems with separated personnel retaining
           network access as we have reported since our 2009 audit.

   D. Certification and Accreditation Controls

       FEC’s Certification and Accreditation Controls need to be strengthened to ensure
       that appropriate IT security controls are in place and operating as designed. FEC
       has not performed a certification review of its key medium risk GSS since
       December 2008. In addition, our review of FEC IT policies identified that FEC
       needs to strengthen FEC policy 58.2.4, Certification and Accreditation (C&A)
       Policy, issued September 2004, to provide additional guidance on what decision
       points drive when a new C&A is required, and to provide specific documentation
       requirements to be maintained in order for the agency to track changes made to
       systems, and to make informed decisions on when major changes drive the need
       for a re-certification. OMB best practices require that a re-certification review be
       performed at least every three years.

       FEC performed a certification of its general support system, using NIST SP 800­
       53 as guidance, and issued a security controls assessment report (SCAR) in
       December 2008. The CIO accredited the system in January 2009 with authority
       to operate until January 15, 2010. The SCAR identified a significant number of
       high and medium risks, and FEC developed a corrective action plan to address



Leon Snead & Company, P.C.                     16
       most weaknesses. Some of the weaknesses FEC decided not to implement
       because the agency is “exempt from FISMA.”

       We discussed the importance of C&A controls, the status of a new C&A on the
       GSS, whether the certification would follow NIST guidelines, and the date the
       certification would take place with the prior CISO and the Deputy CIO for
       Operations. We also requested information on how the agency determined when
       changes made to the GSS, individually or in aggregate, modified or upgraded the
       system in a way that impacted information security and assurance, and therefore
       warranted a new C&A. We were advised that the agency is planning to perform
       another C&A, but a date has not been set, and a decision has not made on whether
       the agency would use NIST SP 800-53 as the guidance document. In addition,
       OCIO officials were unable to provide information as to how the agency made
       determinations that changes to the GSS met the FEC standard that would require
       another C&A.

       Recommendations

       16. Revise FEC policies to: require a certification of its systems at least once
           every three years.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO does not agree with
           this recommendation. Recertification is addressed in policy 58-2.4. FEC
           performed the Certification and Accreditation of systems pursuant to the first
           iteration of NIST SP 800-37 which recommended continuous monitoring of
           selected security controls, plus comprehensive testing of all security controls
           and reauthorization every three years. However, the new framework (NIST
           SP 800-37 rev1, Risk Management Framework) provides a more dynamic
           approach which leverages robust continuous monitoring to support on-going
           authorization and risk management as part of a more steady state, less cyclical
           process. The FEC is investigating this as an option.

           Auditor’s Comments
           The OCIO is correct that the risk management framework discusses a robust
           continuous monitoring framework, similar to the recommendations that we
           have been making since our 2009 audit report. FEC has not performed a
           complete assessment of the GSS, either through continuous monitoring or as a
           periodic assessment since the first assessment was completed in December
           2008, almost four years ago. OMB Circular A-130, Appendix III, provides
           that agencies should “review the security controls in each system when
           significant modifications are made to the system, but at least every three
           years.”

       17. Perform a re-certification of the GSS using NIST SP 800-53 as review criteria
           within this calendar year.



Leon Snead & Company, P.C.                    17
           Agency Response
           The Deputy CIO for Operations advised that the OCIO disagrees with this
           recommendation. Recertification of any FEC system will be performed in
           accordance with policy 58-2.4

           Auditor’s Comments
           FEC policy 58-2.4 is in need of substantial revision. The FEC policy
           discusses that all FEC major applications and general support systems shall be
           re-certified/re-accredited when modified or upgraded in a way that impacts
           information security and assurance, or in response to changes in the risk
           environment. However, when we inquired as to how the agency determines,
           individually and in aggregate, when system modifications or upgrades impacted
           the system’s security, OCIO officials were unable to provide a meaningful
           response. In addition, when we requested documentation of such reviews and
           decisions on system changes, such as the changes made for the FEC System
           Access module, or the changes made for the Enterprise Content Management,
           OCIO officials were unable to provide any documentation of such analyses.

           We continue to believe that a new security assessment, completed in accordance
           with the NIST SP 800-37, Risk Management Framework, needs to be
           completed as soon as possible.

       18. Strengthen FEC Policy 58.2.8 so that it provides additional guidance on what
           decision points drive when a new C&A is required; and specific
           documentation requirements that need to be maintained in order for the
           agency to track changes so it can make informed decisions on when major
           changes drive the need for a re-certification.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO agrees in part. The
           FEC is in consultation with the Department of Commerce will obtain lessons
           learned and perform a cost-benefit analysis on potentially implementing the
           new recommendation by NIST in lieu of prior Certification and Accreditation
           recommendation. FEC does not have a startup, or finish date to implement
           the new Risk Management Framework due to unknown cost at this time.
           However, FEC hopes to implement in fiscal year 2014, if funding is available.

           Auditor’s Comments
           While agency officials agreed with the recommendation, in part, we believe
           that the problems discussed in this report support the recommendation.
           Without full adoption of the recommendation, FEC information and
           information systems will remain at high risk.




Leon Snead & Company, P.C.                    18
    E. Vulnerability Scanning

         Problems related to FEC’s vulnerability scanning 8 program reported in our 2011
         and prior audit reports have not been addressed by FEC. While the FEC had
         established a vulnerability scanning program; the program did not meet best
         practices in several key areas. For example, individual workstations were
         excluded from the scanning process – a significant omission, and vulnerabilities
         identified in the components of the general support system that were scanned,
         were not mitigated timely.

         We identified that about 60 percent of the 250 vulnerabilities identified in the
         agency’s 2012 scanning report had also been identified in scans performed by the
         agency in 2011. In addition, we continued to find that improvements are needed
         in the agency’s patching system 9. For example, about 65 percent of the
         vulnerabilities identified in the agency’s 2012 scan results related to outdated
         versions of software or inadequate patching of systems. These vulnerabilities
         would have been mitigated had FEC implemented an effective patch management
         program.

         Recommendations

         19. Include all components of the general support system, including workstations,
             into the organization’s vulnerability/security scanning process and ensure that
             the general support system in its entirety is assessed at least annually.

             Agency Response
             The Deputy CIO for Operations advised that the OCIO agrees in part with this
             recommendation. All components of the general support system, including
             workstations have been recently scanned for vulnerability and security. The
             report of this scanning will be available in November and the confidential
             results will determine the frequency of future scans. The OCIO disagrees on
             the need for a semi-annual assessment. Frequency of vulnerability scanning
             will be determined based upon results of scan and available resources and
             funding.




8
  NIST controls for a vulnerability scanning program include: performing scans for vulnerabilities in the
information system and hosted applications on a periodic basis; checklists and procedures for the scanning
program; processes for analyzing vulnerability scan reports; and processes for remediating legitimate
vulnerabilities.
9
  NIST defines patch management as the process for identifying, acquiring, installing, and verifying patches
for products and systems. Patches correct security and functionality problems in software and firmware.
From a security perspective, patches are most often of interest because they are mitigating software flaw
vulnerabilities; applying patches to eliminate these vulnerabilities significantly reduces the opportunities
for exploitation. Also, patches are usually the most effective way to mitigate software flaw vulnerabilities,
and are often the only fully effective solution.



Leon Snead & Company, P.C.                              19
           Auditor’s Comments
           Because of the number and age of the vulnerabilities identified in agency
           scans, and the exclusion of workstations from periodic scans, we continue to
           believe that this recommendation should be implemented.

       20. Implement procedures to ensure that scan results are subject to a “root cause”
           analysis to ensure that remediation actions address technical as well as
           organizational processes and procedures.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO disagrees with this
           recommendation. The agency’s current processes contained in Directive 58­
           2.1 addresses root cause analysis, and it's role in mitigation techniques.

           Auditor’s Comments
           While FEC policy 58-2.1 provides “This policy takes into consideration:
           Threat/vulnerability identification and root cause analyses,” our 2012 and
           prior audit tests found that these analyses were not effectively performed. For
           example, our 2010 and 2011 audit reports identified that a large number of
           vulnerabilities that were identified by the agency were related to outdated
           software and inadequate patching. We also noted that many of the issues had
           been included in more than one scanning report. A “root cause” analysis of
           the scanning results would have identified that the FEC’s patch management
           system was not working properly, and that additional corrective actions were
           necessary.

       21. Strengthen controls to ensure that vulnerabilities identified through the
           vulnerability scanning tests are remediated within 30 days, or document
           acceptance of these risks.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO agrees in part with this
           recommendation. The FEC will address level 1 threats, within the 30 day
           requirement. Threats of a lesser nature will be dealt with as soon as possible
           depending on staff and budget restrictions. The policies and procedures
           established in Directive 58, address all this recommendation, and are deemed
           to meet the requirements of the FEC.

           Auditor’s Comments
           FEC officials agreed in part with this recommendation. While FEC officials
           plan to address more significant threats within 30 days, the officials did not
           provide a timeframe for completing other risks identified in the agency scans.
           We believe that the agency directives are in need of revision, and should
           address the problems noted in this report.




Leon Snead & Company, P.C.                    20
     F. Configuration Security Controls and FDCC/USGCB Requirements

         While FEC has incorporated workstations into the change management 10
         framework which addressed a problem we identified in our prior audits, the
         agency’s change management process relies on the manual recording of all
         system changes in an outside application. As reported in our 2011 audit, there
         was no effective process in place to identify all changes to the configuration of
         FEC’s system, and no logs identifying changes to the system are collected.
         Therefore, there is reduced assurance that all changes are processed under the
         agency’s change management framework, or that changes made outside the
         framework will be identified.

         In addition, while FEC has issued configuration baseline standards for a number
         of its systems, these standards have not been fully implemented for the computers
         we tested. We compared the FEC provided configuration settings to several
         laptop computers, and identified that the baseline configuration standards were
         not fully implemented for any of the computers we tested. For workstations and
         configuration standards tested, we identified that 5 of the 15 baseline
         configuration standards settings had not been implemented. We also noted that
         two of the configuration settings could be changed by the user, as users were
         provided administrative rights to the local machine. The current FEC baseline
         configuration standards require that on Windows XP machines the “administrator
         account” be renamed and that access to administrator authorities is limited to only
         those users requiring such access. However, based on the computer settings we
         reviewed, users had been given administrator rights allowing them to change local
         settings.

         As we have reported since our 2009 audit, FEC has not fully implemented
         security control requirements that OMB mandated in 1997 for Windows
         computers.    FEC has established a project to adopt “selected” control
         requirements, and estimates that full implementation of “selected” controls will
         not be implemented until the end of 2012. Our tests found the following non­
         compliant requirements that can be easily implemented and strengthen FEC’s
         network:




10
  The objective of change management is to ensure that standardized methods and procedures are used for
efficient and prompt handling of all changes to control IT infrastructure, in order to minimize the number
and impact of any related incidents upon service. Changes in the IT infrastructure may arise reactively in
response to problems or externally imposed requirements, e.g. legislative changes, or proactively from
seeking improved efficiency and effectiveness or to enable or reflect business initiatives, or from programs,
projects or service improvement initiatives. Change Management can ensure standardized methods,
processes and procedures which are used for all changes, facilitate efficient and prompt handling of all
changes, and maintain the proper balance between the need for change and the potential detrimental impact
of changes.



Leon Snead & Company, P.C.                              21
          Access Control Objective       FEC Settings        FDCC                Meets or
                                                          Requirements         exceed OMB
                                                                              Requirements
        Enforce password history      5 passwords         24                      No

        Maximum password age          180 days            60                      No

        Minimum password age          0 days              1                       No

        Minimum password length       8 characters        12 characters           No

       Recommendations

       22. Implement baseline configuration standards for all workstations.

       23. Fully implement USGCB/FDCC standards and perform scanning of Internet
           Explorer configuration settings.

           Agency Response (Recommendations 22 and 23)
           The Deputy CIO for Operations advised that the OCIO agrees with these
           recommendations. The FEC is in the process of implementing baseline
           configuration. The CIO estimated the completion date as the summer 2013.

           Auditor’s Comments (Recommendations 22 and 23)
           Since the agency agreed to implement these recommendations, we have no
           additional comments.

       24. Implement logging of all configuration changes and review logs regularly to
           ensure that all system changes, including changes to workstations, are
           processed through the change management framework.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO believes that the
           current processes are in compliance with the recommendation. All change
           management processes are logged and maintained by the Change Advisory
           Board.

           Auditor’s Comments
           While the current GSS security plan states that an automated system logging
           of configuration changes is in place for network components, our audit tests
           determined that FEC personnel had not been consistently reviewing the
           system logs. Instead, we found that FEC’s current change management
           process relies on a manual process in which personnel are to record
           configuration changes into a tracking system. However, there is no process in
           place to compare the system logs being generated on these network
           components to those configuration changes recorded in the manual tracking
           system. A comparison would identify configuration changes that were made
           outside the current change management process, and also reveal policy



Leon Snead & Company, P.C.                     22
           deviations. Further, based on the FDCC/USGCB evaluation performed by the
           agency, the system logging capabilities available on the workstations have not
           been implemented. Therefore, there is no assurance that all changes are
           identified and managed through the Change Advisory Board, and the current
           change management framework.

   G. Personnel Security Controls

       Follow up on the actions taken by FEC to address recommendations in our 2011
       report identified the following unresolved personnel security control issues:

         •	 While improvements were noted in controls related to separated FEC
            employees, we did note that for five FEC employees tested, one was not
            removed within the one day requirement established in FEC procedures.
            The employee’s network access was terminated seven days after separation.

         •	 Our tests of FEC contractors who had access to FEC’s network showed five
            separated contractor employees were listed in the FEC System Access
            (FSA) system as active users indicating weaknesses in the agency’s main
            application for tracking employees/contractors network access.

       Recommendations

       25. Review the conditions that caused the employee to retain network access
           beyond the FEC’s standard, and strengthen controls as appropriate.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO has reviewed the
           condition and it was due to the nature of the person’s position. The employee
           was allowed to retain access beyond the FEC's standard due to a human
           bypass of FSA policy. The employee was allowed to exit the agency without
           completing the FSA process. The FSA process and policy was put in place to
           preclude any human intervention.

           Auditor’s Comments
           We are uncertain of the agency’s response to this recommendation. However,
           we continue to believe an analysis of the problems that continue to impact the
           prompt removal of network access for separated personnel needs to be
           performed. We have reported problems related to continued network access
           for separated personnel since our 2009 audit report, and the prior financial
           statement auditors reported similar problems in their 2008 audit report.

       26. Review the FSA database and remove those personnel shown as current
           employees or contractors who have departed the agency.




Leon Snead & Company, P.C.	                   23
           Agency Response
           The Deputy CIO for Operations advised that the OCIO disagrees with this
           recommendation. To maintain historical records, employees that have
           departed will be kept in the system even though their access rights are
           disabled.

           Auditor’s Comments
           The agency’s response does not address our recommendation. Contractors
           listed in FSA as currently on-board had, in fact, separated, in some cases years
           ago.     We continue to believe that the FEC should implement this
           recommendation to reduce the risk of unauthorized access.

   H. Oversight and Monitoring of IT Corrective Actions

       FEC has not timely implemented actions necessary to remediate identified
       weaknesses in IT controls, some of which were first reported in 2008. We
       reviewed financial statement audit reports along with other reports issued since
       2008 to determine whether the FEC has timely and effectively implemented
       controls on weaknesses that FEC officials agreed to correct.

       The results of our review of open financial statement audit recommendations are
       discussed in detail in Attachment 1.

       Recommendations

       27. Review all outstanding audit recommendations contained in the agency’s
           financial statement audit reports, and develop a current, detailed, time-phased
           corrective action plan (CAP) for each audit finding and recommendation.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO disagrees with this
           recommendation since there is already an agreement in place with OIG that
           CAP's are updated twice per year in May and November.

           Auditor’s Comments
           Management’s May and November CAP updates have been required by
           Commission Directive 50: Audit Follow-up since 2006, and are not the result
           of “an agreement in place with the OIG….” In addition, the CAP updates
           have not resulted in resolution of outstanding financial statement audit
           recommendations that have been reported since 2009. The FEC continuously
           fails to meet implementation due dates, and to adequately monitor and resolve
           outstanding audit recommendations. Failure to adequately plan and develop
           useful and achievable corrective actions, results in repeat audit findings being
           reported for several years. For example, concerning the periodic
           recertification of users’ access authorities, FEC has not yet implemented this
           recommendation even though the agency agreed with the recommendation in



Leon Snead & Company, P.C.                     24
           their response to the 2009 financial statement audit. We continue to believe
           that this recommendation should be implemented.

       28. Modify key officials’ position descriptions and rating elements to include, as a
           critical element, the timely completion of corrective action plans.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO disagrees with this
           recommendation. Completion of CAP's is not appropriate for inclusion into a
           key official's position description and is not a critical element.

           Auditor’s Comments
           We have identified a significant number of problems that remained
           uncorrected, in many cases since 2009. In addition, the OIG’s report, Review
           of Outstanding Audit Recommendations, dated June 2012, reported issues with
           timely completion of corrective actions.

           We disagree that it is not appropriate for timely completion of agreed upon
           corrective actions to be included as a rating element for applicable FEC
           officials. As OMB Circular A-50, Audit Followup, provides, “Audit followup
           is an integral part of good management, and is a shared responsibility of
           agency management, officials, and auditors. Corrective action taken by
           management on resolved findings and recommendations is essential to
           improving the effectiveness and efficiency of Government operations.”
           Because of the problems noted, we continue to believe that this
           recommendation should be implemented.

       29. Develop a tracking process that would include monthly reports to the CIO,
           highlight key tasks that may or have miss(ed) target dates, and assign one key
           OCIO official as responsible for monitoring OCIO corrective action plans.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO agrees in part with this
           recommendation. OCIO will review CAP's on a monthly basis at the weekly
           OCIO management meetings.

           Auditor’s Comments
           The issues included in this report support that this recommendation should be
           fully implemented by FEC.

   I. Testing and Exercise FEC’s COOP

       During fiscal year 2011, FEC completed most of the last phase of its multi-year
       plan to implement a Continuity of Operations Plan (COOP) document. However,
       FEC has not yet fully tested and exercised the COOP – a critical element in
       development of a comprehensive and effective plan. FEC’s planning documents



Leon Snead & Company, P.C.                     25
        showed the agency was to have completed necessary testing and exercise by July
        2011. FEC officials advised that the delay was due to the illness of a key project
        team member, and that completion of testing was deferred until approximately the
        beginning of calendar year 2012. As of September 2012, testing has not been
        completed.

        At the beginning of our 2012 audit, we requested documentation from FEC
        officials to enable us to determine whether the FEC COOP had been appropriately
        tested, and whether the tests and related documentation met FEC’s policies and
        Federal Continuity Directive No. 1 requirements for testing. We were initially
        advised by OCIO personnel that no documentation was available related to COOP
        testing. Subsequently, some FEC COOP test planning and related documents
        were located and provided. We were unable to determine from these documents
        whether FEC met either its own testing requirements, or the federal requirements
        that are applicable to the agency.

        The table below lists key federal requirements, and whether documentation
        provided enabled us to conclude whether FEC was in substantial compliance with
        these requirements.

                 FCD 11 No. 1, Appendix K                                Auditor’s Comments
         Annual testing of alert, notification, and             No documentation provided to show that
         activation procedures for continuity personnel         this requirement was met.
         and quarterly testing of such procedures for
         continuity personnel at agency headquarters.
         Annual testing of plans for recovering vital           Some documentation was provided to show
         records (both sensitive and non-sensitive), critical   that critical information systems were tested.
         information systems, services, and data.
         Annual testing of primary and backup                   No documentation provided to show that
         infrastructure systems and services (e.g., power,      this requirement was met.
         water, fuel) at alternate facilities.
         Annual testing and exercising of required              No documentation provided to show that
         physical security capabilities at alternate            this requirement was met.
         facilities.
         Testing and validating equipment to ensure the         No documentation provided to show that
         internal and external interoperability and viability   this requirement was met.
         of communications systems, through monthly
         testing of the continuity communications
         capabilities.
         An annual opportunity for continuity personnel         No documentation provided to show that
         to demonstrate their familiarity with continuity       this requirement was met.
         plans and procedures and to demonstrate the
         agency’s capability to continue its essential
         functions.


11
   Federal Continuity Directive (FCD) No.1, Federal Executive Branch National Continuity Program,
Appendix K, Test, Training and Exercise, was issued by the Department of Homeland Security to guide
federal agencies in the development of COOP documents.



Leon Snead & Company, P.C.                              26
                FCD 11 No. 1, Appendix K                             Auditor’s Comments
        An annual exercise that incorporates the             No documentation provided to show that
        deliberate and preplanned movement of                this requirement was met.
        continuity personnel to an alternate facility or
        location.
        An opportunity to demonstrate that backup data       Some records were available to show some
        and records required supporting essential            aspects of this requirement were tested.
        functions at alternate facilities or locations are
        sufficient, complete, and current.

       Because the documentation provided was insufficient to support that FEC met
       these federal requirements or addressed the issues reported in our 2011 audit
       report, this problem remains open and requires further review and corrective
       action by FEC personnel.

       Recommendations

       30. Ensure that sufficient resources are assigned to timely complete the testing of
           FEC’s COOP in order to reduce risk to the FEC.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO agrees with this
           recommendation. In accordance with Annex A of HSPD 20, the FEC is a
           category 4 agency. The agency COOP is sufficiently tailored to appropriate
           level of preparedness for a Cat 4 agency. The COOP is more aptly aimed at
           providing guidance for continuity after an incident at a local agency level,
           affecting only this agency. The testing completed and documented and results
           provided as a PBC item.

       31. Ensure that appropriate documentation is retained as required by FCD No. 1
           to support that FEC has met all applicable federal testing requirements.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO agrees with this
           recommendation. The FEC has met all TT&E requirements for a category 4
           agency in accordance with internal IT policies and directives. Management
           deems that policies and testing of those policies, directives, COOP and DR
           plans are commensurate with the risk analysis appropriate for this agency.

       32. Develop a detailed POA&M to ensure that required COOP testing and
           exercises are completed as soon as possible.

           Agency Response
           The Deputy CIO for Operations advised that the OCIO disagrees with this
           recommendation and the OCIO believes the COOP testing is complete and
           CAP submitted as a PBC.




Leon Snead & Company, P.C.                            27
           Auditor’s Comments (Recommendations 30 through 32)
           Documentation provided by FEC was analyzed and did not meet federal
           requirements. Therefore, we continue to believe that the recommendations
           should be implemented by FEC.

COMPLIANCE WITH LAWS AND REGULATIONS

The results of our tests of compliance with certain provisions of laws and regulations, as
described in the Responsibilities section of this report, disclosed no instance of
noncompliance with laws and regulations that is required to be reported under
Government Auditing Standards and OMB Bulletin 07-04, (as amended).

AGENCY RESPONSE AND AUDITOR COMMENTS

FEC management responded to the draft report in a memorandum dated November 9,
2012, which indicated that the agency responses to each recommendation are included in
the body of this report. We have included their comments and our response after each
recommendation. FEC also noted in their response that they believe “that such an
extensive IT concentrated audit is perhaps not appropriate” as part of the financial
statement audit.

As we have previously discussed with FEC officials, Government Auditing Standards
require us to perform testing of agency IT systems that could have a direct and material
effect on the audited agency’s financial controls and/or financial statement presentation,
or disclosures. Therefore, we continue to believe our audit testing of IT controls was
appropriate.

The FEC’s written response to the significant deficiency identified in our audit was not
subjected to the auditing procedures applied in the audit of the financial statements and
accordingly, we express no opinion on it.

DISTRIBUTION

This report is intended solely for the information and use of the management, the FEC
Board, the Office of Inspector General, and others within the FEC, OMB, and Congress,
and is not intended to be and should not be used by anyone other than these specified
parties.


Leon Snead & Company, P.C.
November 14, 2012




Leon Snead & Company, P.C.                     28
                                                                             Chart on FEC’s Corrective Actions                                                               Attachment 1




    Audit                 Finding                       Recommendation                           FEC Responses 12                        Background Information/Current Status
   Reports
2008-2012         Configuration                Ensure that FEC baseline                    FEC generally agreed to               Remains open. First reported in our 2009 audit report.
FEC Financial     Management                   configuration  standards   are              implement recommendations             We found in our 2012 audit that according to FEC
Statement         FDCC/USGCB                   implemented in accordance with              in its response to our 2009           scans, the agency has implemented a large percentage of
Audit Reports                                  FDCC requirements for all                   audit.                                FDCC requirements. However, several key controls that
                                               workstations.                                                                     would be easily implemented have not been
                                                                                                                                 implemented by FEC relating to password strength and
                                                                                                                                 related areas. Also, the FDCC and USGCB contain
                                                                                                                                 control settings for Internet Explorer. We were advised
                                                                                                                                 that FEC does not scan for these settings.
                                               Perform periodic assessments of             FEC generally agreed to               Remains open. First reported in our 2010 audit report.
                                               baseline configuration settings as          implement recommendations             We found in our 2012 audit that the problems remain
                                               part of FEC’s continuous                    in its response to our 2010           essentially the same as we reported in 2010.
                                               monitoring program.                         audit.
                  Vulnerability                Include all components of the               FEC generally agreed to               Remains open. First reported in our 2009 audit report.
                  Scanning                     general support system, including           implement recommendations             We found in our 2012 audit that the problems remain
                                               workstations,         into       the        in its response to our 2009           essentially the same as we reported in 2009. FEC
                                               organization’s         vulnerability        audit. However, FEC added             officials advised us that they have recently completed
                                               scanning process to ensure that             that the agency needed to             scanning of the FEC’s network. However, we have not
                                               the general support system, in its          implement portions of FDCC            reviewed the scanning process or the scanning reports.
                                               entirety, is periodically assessed.         it agreed to adopt prior to
                                                                                           implementing            this
                                                                                           recommendation.




   12
     FEC responses are briefly summarized for presentation. Where FEC disagreed with a recommendation, or significant portions of a recommendation, we show that information. However, when in our
   opinion, the FEC response is in general agreement with the recommendations we did not include minor points.




   Leon Snead & Company, P.C.                                                                     29
                                                                           Chart on FEC’s Corrective Actions                                                               Attachment 1




 Audit                  Finding                       Recommendation                           FEC Responses 13                        Background Information/Current Status
Reports
                Personnel   Security         Implement additional controls to            FEC generally agreed to               Remains open. Issue first reported in 2008 audit report.
                and Access Controls          ensure that former employees’               implement recommendations             While we found improvements in this control from the
                                             access to the network is                    in its response to our 2009           significant problems noted in our 2011 audit, we noted
                                             terminated in accordance with               audit.                                that one sampled individual was removed untimely, and
                                             FEC policies.                                                                     five separated contractor employees were listed in the
                                                                                                                               FEC System Access (FSA) system as active users
                                                                                                                               indicating weaknesses in the agency’s main application
                                                                                                                               for tracking employees/contractors network access.
                                             Assure sufficient resources are             FEC in its response generally         Remains open. First reported in our 2009 audit report.
                                             provided to complete the project            agreed to implement the               We found in our 2012 audit that the problems remain
                                             dealing with the establishment of           recommendations in this area          essentially the same as we reported in 2009.
                                             processes to enable periodic                in our 2009 audit report.
                                             review      of   users’    access
                                             authorities.
                Security     Awareness       Revise FEC procedures to require            First reported in our 2010            Remains open. Completion of the security awareness
                Training                     that all new personnel and                  audit report. Management              training was delayed until after our scheduled field work
                                             contractors take the security               partially     agreed      with        completion date, and was not tested during this year’s
                                             awareness      training,    and             recommendations,          and         audit. Security awareness training was included as a
                                             acknowledge rules of behavior               provided alternative process.         problem area in our 2011 audit report.
                                             prior to being granted access to            We agreed to this alternative
                                             FEC systems.                                process as a way of
                                                                                         remediating the issue.
                COOP Development             Multiple recommendations were               FEC management concurred              Remains open.             Over the five years, FEC has
                and Testing                  made on this area since our 2009            with our recommendation               developed the COOP and implemented portions of a
                                             audit report, and it was reported           that the COOP be completed            testing, training, and exercise (TTE) program required
                                             in the predecessor auditor’s 2008           and fully tested by the end of        by FCD No. 1, Appendix K. However, documentation
                                             audit report.                               2010 calendar year.                   of test plans, test results, and analysis of test results was
                                                                                                                               not sufficient to enable us to conclude that FEC met the
                                                                                                                               federal requirements for TTE of its COOP.



 13
   FEC responses are briefly summarized for presentation. Where FEC disagreed with a recommendation, or significant portions of a recommendation, we show that information. However, when in our
 opinion, the FEC response is in general agreement with the recommendations we did not include minor points.




 Leon Snead & Company, P.C.                                                                     30
                                                                                          Attachment 2


                             Status of Prior Year Recommendations


Rec.                         Recommendation                                          Status As of
No.                                                                               September 30, 2012
1.     Continue to work with NFC and GSA so that the two service              Recommendation closed.
       provider’s systems can be interfaced according to the current
       timeline.

2.     Develop a time-phased corrective action plan to convert the            Recommendation closed.
       manual accounts receivable process to an automated and integrated
       system.

3.     Implement baseline configuration standards for all workstations        Recommendation open.
       and require documentation and approval of any deviations from
       this standard.

4.     Fully implement USGCB/FDCC standards.                                  Recommendation open.
5.     Implement logging of configuration changes to ensure that all          Recommendation open.
       system changes are processed through the change management
       framework.

6.     Include all components of the general support system, including        Recommendation open.
       workstations, into the organization’s vulnerability scanning
       process.

7.     Implement procedures to ensure that scan results are subject to a      Recommendation open.
       “root cause” analysis to ensure that problems are fully resolved.

8.     Develop a process to ensure that vulnerabilities identified through    Recommendation open.
       scanning are documented in a corrective action plan, and
       monitored to ensure timely remediation.
9.     Establish and publish a policy that requires annual recertification    Recommendation open.
       of users’ access authorities.

10.    Assure sufficient resources are provided to the document and           Recommendation closed.     This
       records management system (Livelink) so that it can be completed       recommendation was rolled into
       no later than June 2012.                                               Recommendation 9 since LiveLink
                                                                              is no longer being used for this
                                                                              purpose.

11.    Validate all active users to assure that only individuals who are      Recommendation open.
       currently and properly authorized have access to FEC’s
       information and information systems.

12.    Analyze the reasons separated personnel retained access to FEC         Recommendation open.
       systems, and develop additional controls to ensure that FEC timely
       removes access for individuals who leave the agency.

13.    Establish controls that would automatically suspend an                 Recommendation open.
       individual’s network access if security awareness training is not
       completed within required timeframes.

14.    Ensure all personnel and contractors that have not yet taken the       Recommendation open.
       security awareness training complete it within the next 30 days.

15.    Ensure that sufficient resources are assigned to the task of testing   Recommendation open.
       the COOP in order to reduce the risks to FEC operations.




 Leon Snead & Company, P.C.                          31
                                                                                          Attachment 2


Rec.                         Recommendation                                          Status As of
No.                                                                               September 30, 2012
16.    Develop specific control processes and issue operational policies      Recommendation closed.
       that establish automated control procedures to ensure that FEC
       uses software and associated documentation in accordance with
       contract agreements and copyright laws.
17.    Restrict network folders & subfolders containing copyright             Recommendation closed.
       applications and software to only authorized users based on the
       operational policies developed and implemented.
18.    Review all folders and files on the “userinstall” network folder,      Recommendation closed.
       and remove all applications and data that are not current, or do not
       meet the specific operational purposes of this folder.

19.    Formally adopt the NIST IT security controls established in FIPS       Recommendation open.
       200, Minimum Security Requirements for Federal Information and
       Information Systems, and SP 800-53, Recommended Security
       Controls for Federal Systems and Organizations.

20.    Require FEC contractors to adhere to the FAR related IT controls       Recommendation open.
       when providing services to the FEC to ensure sufficient controls
       are in place to meet best practices.




 Leon Snead & Company, P.C.                          32
                                 Federal Election Commission
                         Fiscal Year 2012 Financial Statement Audit
                          Management Responses to Audit Findings



The Federal Election Commission has made significant strides in addressing findings and
recommendations that arise through the annual financial statement audit. In FY 2012, the FEC
fully resolved the significant deficiency related to internal controls over financial reporting and
continues to address Information Technology (IT) security control needs identified that relate to
Information Technology policies, practices and procedures. The Federal Election Commission’s
responses to the FY 2012 audit findings were provided in the draft document sent by the Office
of the Inspector General on November 6, 2012.

The agency maintains the highest level of commitment to its information technology security and
systems. Although the FEC is exempt from most of the requirements of the Federal Information
Security Management Act (FISMA), the agency still incorporates many of FISMA’s best
practices. The FEC has in place directives and a corrective action plan that is reviewed twice a
year to mitigate potential risk factors. The agency’s financial management systems are provided
by NFC and GSA under shared service agreements. The FEC receives and relies upon SSAE 16
audit reports to obtain assurance over financial applications provided by GSA and NFC.

The FEC has established 34 policies, 18 standards and 8 procedures to govern and define the
agency’s IT security program, following the guidance published by the National Institute of
Standards and Technology (NIST), although the agency is exempt from many of those
requirements. The FEC has concurred with a number of the recommendations provided by the
audit, and will continue to implement those recommendations where economically and
technically feasible and where such actions fit within the management framework of the agency.
While the FEC requests budget funds to comply with applicable IT control standards, the FEC
does not find it feasible to request additional funding to adopt FISMA requirements that
Congress has exempted this agency from adhering to. The Office of the Chief Information
Officer has incorporated many industry “best practices” in establishing the FEC’s IT security and
monitoring program.

A large portion of the findings and recommendations stemming from the Financial Statements
Audit are concerned with the agency’s Continuity of Operations Plan (COOP). The audit does
not identify the FEC’s category rating in the continuity of government plans. The FEC is a
category 4 agency in the continuity of government plans which translates to the lowest priority
for continuing agency operations in the event of a government-wide disruption of government
services. Therefore, the FEC’s approach to the COOP centers on an event that would affect FEC
agency operations only, and does not address events affecting the government as a whole. An
example of this would be if the FEC’s building alone became unavailable for use due to a
building malfunction. This approach greatly reduces the scope of the COOP to FEC-specific
mission functions. To further reduce the risk of FEC systems loss due to a building malfunction,
the agency has recently completed the data center consolidation project to close down its
internally operated data center and move it off-site to a certified contractor data center.
Therefore, the FEC’s COOP has been tailored to suffice in support of the agency’s mission and
responsibility to the government as a whole, as well as within the availability of resources
(budget and personnel) as approved through the budget process.

Management’s responses to each individual IT finding are contained within this report, with an
explanation as to why the FEC may not agree with the finding. It is also noted that such an
extensive IT concentrated audit is perhaps not appropriate under the guise of a Financial
Statement Audit, and may dilute the objective of the audit.
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
